CERTIFICATE OF SERVICE
I certify that three copies of the Petition For Writ of Certiorari, and thee
copies of the Appendix in book-format were mailed to the following respondents by
United States Postal Service on August J5_, 2019.
Matthew Whitaker or successor,
U.S. Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Phone: 202-514-2000

Tiffany Rogers, DIVISION MANAGER
5400 Federal Plaza, Suite 2300
Hammond, IN 46320
Phone: 219-852-6500
Kim Unknown Last name CLERK
5400 Federal Plaza, Suite 2300
Hammond, IN 46320
Phone: 219=852=61500

CLERK OF COURT
Robert N. Trgovich
204 S Main St
South Bend, IN 46601
Phone:

Theo Nickerson, Attorney for
KEVIN K. MCALEENAN,
Acting Secretary of the Department of
Homeland Security
MICHAEL R. POMPEO, U.S.
Secretary of State
TYRONE SHELTON, Regional
Director of the New Hampshire Passport
Agency
[COR LD NTC Government Federal]
DEPARTMENT OF JUSTICE Civil
Immigration Litigation Division
P.O. Box 878 Ben Franklin Station
Washington, DC 20044-0000

Judge Joseph S. Van Bokkelen
5400 Federal Plaza, Suite 4200
Hammond, IN 46320
Phone: (219) 852-6720
Fax: (219) 852-6721

By:

ajlQ

Achashverosh Adnah Ammiyhuwcr
Transient Foreigner
In c/o 2700 Valparaiso St. P.O. Box 1542
Non-Domestic-without US, 28 U.S.C. ยง 1746(1)
Valparaiso, Indiana, Zip Code Exempt
[DMM 602 1.3e (2)]
Phone: 443-350-4567
Email: Acha5hverosh@hotmail.com

